     Office of Inspector General
Federal Communications Commission




        Semiannual Report to Congress
        April 1, 2012 through September 30, 2012
               The Federal Communications Commission




                                          (left to right)
Commissioner Jessica Rosenworcel, Commissioner Robert
M. McDowell, Chairman Julius Genachowski, Commissioner
Mignon Clyburn and Commissioner Ajit Pai.




FCC OIG - Semiannual Report to Congress           2         April 1, 2012 - September 30, 2012
                                                           Cover Memorandum

OFFICE OF INSPECTOR GENERAL

DATE:                   September 30, 2012

TO:                     Chairman, Federal Communications Commission
                        Commissioner Robert McDowell
                        Commissioner Mignon Clyburn
                        Commissioner Jessica Rosenworcel
                        Commissioner Ajit Pai

FROM:                   Inspector General

SUBJECT:                Semiannual Report to Congress


In accordance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3 § 5, I
have attached my report summarizing the activities and accomplishments of the Office of the
Inspector General ("OIG") during the six-month period ending September 30, 2012. In accord-
ance with Section 5(b) of that Act, it would be appreciated if this report, along with any associ-
ated report that you prepare as Chairman of the Federal Communications Commission ("FCC"),
were forwarded to the appropriate Congressional oversight committees within 30 days of your
receipt of this report.


This report describes audits that are in process, as well as those that have been completed during
the preceding six months. OIG investigative personnel continued to address issues referred to,
or initiated by, this office. Where appropriate, investigative and audit reports have been for-
warded to the Commission's management for action.


This office remains committed to maintaining the highest possible standards of professionalism
and quality in its audits, investigations, inspections and consultations and we welcome any com-
ments or suggestions that you might have. Please let me know if you have any questions or
comments.



                                                             David L. Hunt
                                                             Inspector General
Enclosure



FCC OIG - Semiannual Report to Congress         3                  April 1, 2012 - September 30, 2012
TABLE OF CONTENTS


Introduction                                                                5

OIG Management Activities                                                   6

       Office Staffing                                                      6

       Information Technology Initiatives                                   7

       Internship Program                                                   8

       Legislative and Policy Matters                                       8

Audit Activities                                                            10

       Financial Audits                                                     10

       Performance Audits                                                   10

       Universal Service Fund (“USF”) Oversight                             16

Investigations                                                              21

       Modernizing the Office of Investigations                             21

       Activity During this Period                                          22

       Significant Activities                                               22

       OIG Hotline                                                          27

Reporting Requirements of the Inspector General Act                         29

APPENDIX – Results of Peer Reviews                                          31


FCC OIG - Semiannual Report to Congress       4       April 1, 2012 - September 30, 2012
INTRODUCTION

The Federal Communications Commission ("FCC" or “the Commission”) is an independent
regulatory agency, established by Congress to regulate interstate and foreign communications
by radio, television, wire, satellite and cable. The FCC’s jurisdiction covers the fifty states,
the District of Columbia, the Commonwealth of Puerto Rico and all U.S. territories.

The FCC consists of a Chairman and four Commissioners, who are appointed by the President
and confirmed by the United States Senate. Julius Genachowski serves as Chairman. Robert
M. McDowell and Mignon Clyburn serve as Commissioners, and during the reporting period
two new Commissioners were named, Jessica Rosenworcel and Ajit Pai. OIG welcomes the
new Commissioners and we are pleased that the FCC once again has a full complement of
leadership. Most of the FCC's employees are located in Washington, D.C. at the Portals II
building, which is located at 445 12th St., S.W., Washington, D.C. Field offices and resident
agents are located throughout the United States.

The Office of Inspector General ("OIG" or “Office”) is dedicated to ensuring compliance with
the requirements of the Inspector General Act and assisting the Chairman in his continuing
efforts to improve the effectiveness and efficiency of the Commission. In accordance with the
Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, the Inspector General
(“IG”), David L. Hunt, reports directly to the Commission. Management matters are coordi-
nated with the Chairman’s office. The IG's staff consists of attorneys, auditors, economists,
investigators, management specialists and support personnel. Principal assistants to the IG
are: Thomas C. Cline, Deputy IG; William K. Garay, Assistant Inspector General ("AIG") for
Audits; Gerald T. Grahe, AIG for Universal Service Fund Oversight; Harold F. Shrewsberry,
AIG for Management; Jay C. Keithley, Acting AIG for Investigations and Counsel to the IG;
Kathleen O’Reilly, Special Counsel on the Universal Service Fund; and Jon R. Stover, Senior
Legal Advisor.

This semiannual report includes the major accomplishments and activities of the OIG from
April 1, 2012 through September 30, 2012, as well as information on the IG’s goals and fu-
ture plans.




FCC OIG - Semiannual Report to Congress         5                  April 1, 2012 - September 30, 2012
OIG MANAGEMENT ACTIVITIES

Office Staffing

OIG is comprised of 23 Full Time Equivalent (“FTE”) and 10 Not To Exceed (“NTE”) term
appointed professionals, and five FTE and one NTE support personnel. The staffing needs of
this office have been described in the last several Semiannual Reports. Several activities relat-
ed to staffing, as well as our own plans for the organization of the Office, have occurred in the
six-month reporting period.

OIG had requested funds in the last three fiscal year (“FY”) budget requests for additional staff.
Significant additional funds were provided to OIG in the FY 2012 budget authorization, but we
were not provided a specific FTE allocation. However, actions taken by the agency have ad-
dressed this issue.

FCC has segregated OIG’s budget out of the agency’s, and OIG now has a separate budget al-
location rather than being subsumed by the FCC budget. As well as instituting procedures to
ensure we protect the resources entrusted to us, we are implementing a hiring plan that will ex-
pand our resources and staffing and greatly improve our capabilities to meet the expectations of
the FCC, Congress and the public. We have recently added an administrative support person to
our staff and are in progress on hiring four auditors, a computer forensics investigator, an in-
vestigative attorney and two criminal investigators.

Our Office had the misfortune to see the passing of one of our most senior staff members dur-
ing the reporting period. Mr. Kimberly Bumstead passed away on July 18, 2012. Kim was a
member of our Office for over eight years and was a recognized expert on the E-Rate program
under the Universal Service Fund.

Our professional staff consists of well-trained, experienced professionals, most of whom have
one or more professional certifications. In our continuing efforts to increase the expertise of
our auditors, attorneys and investigators, members of this office have attended classes at the
Federal Law Enforcement Training Center, the Inspector General Criminal Investigative Acad-
emy, other Inspectors General training programs and other relevant venues.

Two of our employees obtained certifications during the reporting period. William Garay, AI-
GA, obtained both Certified Forensic Interviewer and Certified Fraud Examiner certifications
during the period. Christopher Shields, one of our investigatory attorneys, obtained Seized
Computer Evidence Recovery Specialist (“SCERS”) certification.

Subsequent to the reporting period, on October 16, 2012, Jay C. Keithley, FCC Acting Assis-
tant Inspector General for Investigations and Sharon R. Diskin, Special Counsel, received an
Award for Excellence in Investigations at the 15th annual Council of the Inspectors General on
Integrity and Efficiency Awards Ceremony held in Washington, D.C. The award was given in



FCC OIG - Semiannual Report to Congress         6                  April 1, 2012 - September 30, 2012
OIG MANAGEMENT ACTIVITIES

recognition of their work in support of the Telecommunications Relay Service.

Information Technology (“IT”) Initiatives

Communications

All OIG staff is issued Blackberry wireless devices enhancing staff’s ability to communicate
remotely and to fulfill emergency contact notification and for meeting continuity of operations
requirements. The IG and Deputy IG are currently testing advanced communication devices
and we plan to expand this program in the upcoming fiscal year.

Computers

All OIG staff is issued laptop computers configured with a built in wireless card for accessing
the FCC network through a virtual private network connection. OIG is issuing new and faster
laptop computers to staff beginning in October 2012.

Tools

OIG maintains global positioning devices, digital cameras, portable printers and scanners, Iron
Key secure thumb drives and digital voice recording devices. OIG has external hard drives ca-
pable of storing all of our sensitive data as a remote, non-online data storage.

Automated Systems

OIG has completed the implementation of systems and software products designed to improve
OIG data management in the area of investigations and audits.

LexisNexis – A commercial-off-the-shelf (“COTS”) product with the following components:
      Concordance
      Pre-Law
      CaseMap

Case Management System – A COTS product used for storing investigative material and pro-
ducing reports.

TeamMate – A COTS product designed and implemented enhancing OIG’s audits production
and tracking.
All three of these software products are stored on isolated OIG servers with remote backup at




FCC OIG - Semiannual Report to Congress        7                   April 1, 2012 - September 30, 2012
OIG MANAGEMENT ACTIVITIES

the FCC remote data storage data center.

These IT initiatives expand OIG capabilities for managing OIG program and project data re-
quirements.

OIG is in the process of installing a storage area network (“SAN”) as a dedicated network that
provides access to consolidated, block level data storage. SANs are primarily used to make
storage devices, such as disk arrays, tape libraries, and optical storage devices accessible to
servers so that the devices appear as locally attached devices to the operating system.

OIG has contracted with an 8(a) Small Business Administration (“SBA”) certified small busi-
ness for converting hard copy documents into electronic documents. This project will enhance
the capability of investigators and auditors to search documents and data used for audits and
investigations.

In FY 2012 OIG contracted with several 8(a) SBA certified small businesses for audit and liti-
gation services. This initiative supports the President’s and Congressional goals for awarding
contractions to small disadvantaged businesses. Based on the quality of the work and efficien-
cy of this small disadvantaged business the OIG will continue this initiative.

In September 2012, the IG added funds to an FCC contract that supports the agency network.
This funding will provide for a designated IT specialist specifically dedicated to maintaining
and modernizing OIG IT hardware and software products.

Internship Program

OIG welcomes college interns during the fall, spring and summer semesters. Most of these stu-
dents take their internships for credit. Our interns have come from schools across the country.
These internships have proven to be a rewarding experiences for all participants. Students
leave with a good understanding of how a government agency operates, and they have the op-
portunity to encounter challenges while enjoying the rewards that can come from public ser-
vice. In turn, the Office has benefited from the students’ excellent work performance.

Legislative and Policy Matters

Pursuant to section 4(a)(2) of the Inspector General Act of 1978, 5 U.S.C.A. App. as amended,
our Office monitors and reviews existing and proposed legislation and regulatory proposals for
their potential impact on the OIG and the FCC’s programs and operations. Specifically, we
perform this activity to evaluate legislative potential for encouraging economy and efficiency
while helping to reduce fraud, waste, abuse, and mismanagement.




FCC OIG - Semiannual Report to Congress        8                  April 1, 2012 - September 30, 2012
OIG MANAGEMENT ACTIVITIES

In addition to legislative developments, OIG continuously monitors FCC policy development
and provides input as appropriate. We have also participated in many surveys and data calls
sponsored by the Council of Inspectors General for Integrity and Efficiency and the Recovery
Accountability and Transparency Board. We have responded to several Congressional inquir-
ies during the reporting period, and we have named a senior staff member as a Congressional
Liaison Officer.

Please see the Appendix to this report for information regarding peer reviews as required by
Public Law 111-203.




FCC OIG - Semiannual Report to Congress        9                  April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

Under the authority of the Inspector General Act of 1978, as amended, the OIG conducts inde-
pendent and objective audits and inspections designed to prevent and detect waste, fraud and
abuse and to promote economy, effectiveness and efficiency in FCC programs and operations.
These audits and inspections are conducted in accordance with professional standards. The
following sections are highlights of the work conducted by the audit teams during the current
reporting period.

Financial Audits

Financial statement audits are mandatory and provide reasonable assurance as to whether the
agency’s financial statements are presented fairly in all material respects. Other objectives of
financial statement audits are to provide an assessment of the internal controls over transaction
processing for accurate financial reporting and an assessment of compliance with applicable
laws and regulations.

            Audit of the Federal Communications Commission Fiscal Year 2011
                            Consolidated Financial Statements

In accordance with the Accountability of Tax Dollars Act of 2002, the FCC will prepare con-
solidated financial statements for FY 2012 in accordance with Office of Management and
Budget (“OMB”) Circular A-136, Financial Reporting Requirements, and subject them to au-
dit. The Chief Financial Officers Act of 1990, as amended, requires the FCC IG, or an inde-
pendent external auditor selected by the IG, to audit the FCC financial statements in accord-
ance with government auditing standards issued by the Comptroller General of the United
States (“GAGAS”). Under the direction of OIG, KPMG LLP (“KPMG”), an independent cer-
tified public accounting firm, is currently performing the audit of FCC’s FY 2012 consolidated
financial statements. The audit is being performed in accordance with GAGAS, OMB Bulletin
07-04, as amended and applicable sections of the U.S. Government Accountability Office
(GAO)/President’s Council on Integrity & Efficiency (“PCIE”) Financial Audit Manual.

Performance Audits

Performance audits are systematic examinations that are conducted to assess the performance
of a government program, activity, or function so that corrective action can be taken, if appro-
priate. Performance audits include audits of government contracts and grants with private sec-
tor organizations, as well as government and non profit organizations that determine compli-
ance with contractual terms, Federal Acquisition Regulations (“FAR”), and internal contractual
administration.




FCC OIG - Semiannual Report to Congress         10                  April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

        Fiscal Year 2012 Federal Information Security Management Act Evaluation

The Federal Information Security Management Act (“FISMA”) requires federal agen-
cies to develop, document, and implement an agency-wide program to provide infor-
mation security for the information and information systems that support the operations
and assets of the agency, including those provided or managed by another agency, con-
tractor, or other source. According to FISMA, “information security” means protecting
information and information systems from unauthorized access, use, disclosure, disrup-
tion, modification, or destruction in order to provide integrity, confidentiality and availa-
bility.

A key FISMA provision requires that each OIG annually evaluate its agency’s infor-
mation security programs and practices. These evaluations must include testing of a
representative subset of systems and an assessment, based on that testing, of the agen-
cy’s compliance with FISMA and applicable requirements. To address this requirement,
we contracted with KPMG to perform the FY 2012 FISMA evaluation. This evaluation
will be completed during the next semiannual reporting period.

                    Audits of Telecommunications Relay Service Providers

The Telecommunications Relay Service (“TRS”) fund compensates communications service
providers for the costs of providing interstate telecommunications services that enable a person
with hearing or speech disabilities to communicate with a person without hearing or speech dis-
abilities. Video Relay Service (“VRS”) is a form of TRS that enables persons with hearing dis-
abilities who communicate in American Sign Language to communicate with voice telephone
users through video equipment and an interpreter.

VRS providers are reimbursed from the TRS fund for minutes of service provided, at the rates
established by the FCC. The TRS fund has grown substantially since its inception due to the
increase in minutes of service reimbursements claimed, but fell sharply for the 2010-2011 fund
year. The fund’s initial allotment in 1993 for distributions was $31 million and increased over
the next six years to $38 million in 1999. After 1999, the fund increased approximately 50 to
80 percent each year and reached $891 million in the 2009-2010 Fund year.

Audit of Federal Funds Paid to Telecommunications Relay Service Providers

Per our audit plan, we initiated audits of five VRS providers to determine whether all federal
funds received in by them 2011 were applied in accordance with TRS program requirements
and supported by adequate documentation.




FCC OIG - Semiannual Report to Congress        11                  April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

Additionally, the audits will follow-up on the findings from prior years’ audits. One of the five
provider audits, Sorenson Communications, Inc., was completed in this reporting period and is
discussed in the next section. The remaining audits are in progress and are expected to be com-
pleted by December 31, 2012.

Audit of Sorenson Communications, Inc.

We completed an audit of Sorenson Communications, Inc. (“Sorenson”) during this reporting
period. Sorenson received the majority of the total VRS cash payments made to all VRS pro-
viders in 2011.

The audit concluded that, while Sorenson provided adequate support for their costs and resolu-
tion of prior year’s audit findings was in progress, not all of the VRS funds received by
Sorenson were applied in accordance with the TRS program.

The auditors found that TRS funds received by Sorenson did not compensate for only the rea-
sonable costs of providing access to the VRS. Costs reported on a Relay Service Data Request
(“RSDR”) submitted by a provider should reflect the reasonable and allowable costs of provid-
ing VRS. The RSDR is filed annually by VRS providers and includes actual operating cost in-
formation for the preceding two years. In 2011, Sorenson received significantly more in VRS
compensation than what they reported on their RSDR. This excess, for 2011 alone, amounts to
a substantive amount of money and points to a significant problem with the FCC’s VRS com-
pensation mechanism. The audit also noted that a significant portion of the funds received
from the TRS fund was used to pay the interest expense of Sorenson’s long-term debt from
which significant dividends were paid to company shareholders. Information in the audit re-
port regarding debt and negative equity position leads OIG to conclude the company at consid-
erable risk.

         Agency Verification of American Reinvestment and Recovery Act Funds

The American Recovery and Reinvestment Act of 2009 (“ARRA” or “Recovery Act”) speci-
fied two programs under which the FCC had responsibilities: the Digital-To-Analog Converter
Box Program (“DTV”) and a program to develop a national broadband plan. As of March 1,
2012, the Commission had obligated over $98 million of the Recovery Act funds and had paid
out over $94 million in furtherance of these programs. Of the $98 million in obligations, $62
million was obligated for DTV-related contract awards and $36 million was obligated for con-
tract awards related to development of a national broadband plan.

 OIG performed a review of the FCC’s verification of funds provided by the ARRA to the FCC
to assist Americans in their transition to DTV. The Recovery Accountability and Transparency
Board (“RATB” or “the Board”) requested that Offices of Inspectors General assist with coor-



FCC OIG - Semiannual Report to Congress        12                  April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

dinating an Agency review of funds authorized under the ARRA. Specifically, the Board re-
quired that Agencies:

   confirm the accuracy of appropriation amounts for each Treasury Appropriation Fund Sym-
    bol (“TAFS”),

   confirm the obligation amount reported on the ARRA Financial Activity Report, and

   provide a list of ARRA funds that had expired or were expected to expire by TAFS.

The Board requested that the Offices on Inspectors General perform an optional cursory review
of management’s review of ARRA funds and its response to the Board.

In its report to the Board, FCC management confirmed the accuracy of its ARRA appropria-
tions for each TAFS and noted that the previously reported data did not require any revisions.
Because the FCC did not receive any direct ARRA appropriations, management also reported
the funding source for all ARRA funds that it received. Additionally, management confirmed
that it had transferred all unexpended funds to the Department of the Treasury or the National
Telecommunications and Information Agency, and thus did not have any expired or expiring
funds to report to the Board.

OIG’s review was limited to inquiries with FCC management about its procedures for confirm-
ing the accuracy of ARRA appropriations and obligations and its methodology for identifying
expired or expiring funds. Our review did not identify any errors, omissions or deficiencies in
FCC management’s procedures for reporting of ARRA appropriations, obligations, and expired
or expiring funds. We issued our memorandum on this review on August 23, 2012.

     Inspection of Jobs Created by American Reinvestment and Recovery Act Funds

OIG performed an inspection of FCC’s reporting of jobs created by contractors funded with
ARRA funds. The Recovery Act required contractors to report the number of jobs created or
retained as a result of contracts paid for by Recovery Act funds.

Section 1512 of the American Recovery and Reinvestment Act of 2009 and OMB guidance re-
quire recipients (such as contractors) and subrecipients (such as subcontractors) of Federal as-
sistance awards to report on the nature of projects and the number of jobs created or retained
using Recovery Act funds. This information must be reported quarterly by recipients to Federal
Reporting.gov, a nationwide data collection system created and managed by OMB and the Re-
covery Accountability and Transparency Board. To provide transparency in the use of Recov-
ery Act funds, the reports are then made available to the public on the Recovery.gov web




FCC OIG - Semiannual Report to Congress        13                 April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

site and individual agency web sites.

Our inspection of supporting documentation from four selected FCC contractors resulted in the
following conclusions.

1. One contractor properly supported and calculated the number of jobs created or retained
   according to the Recovery Act and OMB guidelines. The contractor was able to accurately
   track hours worked by its employees with the assistance of a time recording system, Kro-
   nos, developed by the FCC to monitor contract work.

2. One contractor did not have data to support the number of jobs they reported as created or
   retained by contracts funded with Recovery Act dollars. The majority of the work was per-
   formed by subcontractors on these DTV contracts. The prime contractor did not collect da-
   ta from subcontractors to accurately calculate the number of jobs created or retained by Re-
   covery Act funds.

3. Two contractors submitted data with material errors and omissions, therefore, we could not
   determine if the jobs reported by these contractors were accurate.

4. We questioned the accuracy of the job calculations and, in some instances, the data used in
   these job calculations by contractors. However, due to the small sample size, we could not
   calculate the impact on the nationwide data.

Subsequent to the semiannual reporting period, we issued our report on this inspection. FCC
management reviewed and agreed with the report's conclusions.

The following audits were initiated in September 2012.

                        Audit of Revenues Received by VRS Providers

We continue to follow up on VRS audit issues and have initiated additional audits in September
2012 on all the VRS providers including Sorenson. The objective, as before, is to determine
whether all federal funds received in 2012 by the providers were applied in accordance with
TRS program requirements and are supported by adequate documentation.

                                          Web Security Audit

The purpose of the Web Security audit is (1) to assess the adequacy and the effectiveness of the
controls over the web site environment, (2) determine the adequacy of and compliance with the
FCC’s website related directives, policies, and procedures, and (3) determine the Commission’s
compliance with the National Institute of Standards and Technology (“NIST”) guidance regard-



FCC OIG - Semiannual Report to Congress           14              April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

ing web site management and security, including security in public cloud computing.

                                          Red Light Rule Audit

OIG has initiated an audit of the FCC’s Red Light Rule, which is part of FCC’s debt collection
effort, for fiscal years 2011 and 2012. This audit will (1) determine the effectiveness and accu-
racy of the recording and reporting of debt owed to the FCC; (2) evaluate the efficiency of col-
lecting debt owed to the FCC; (3) assess the adequacy and the effectiveness of the internal con-
trols over the process of tracking, collecting, and reporting debt owed to the FCC; and (4) deter-
mine the FCC’s compliance with applicable laws and regulations as well as directives, policies,
and procedures related to the Red Light Rule.

                                 TRS Fund Administrator Audit

The overall objective of this audit is to determine whether the TRS fund administrator has ad-
ministered the TRS fund in accordance with the FCC Rule (47 C.F.R Section 64.604), and the
requirements set forth in its contract (as TRS Fund Administrator) with the FCC.

                                     RSDR Projections Audit

This audit will focus on whether the projected costs reflected on the provider-submitted RSDR
have supportable basis. These projected costs are important because they are significantly con-
sidered when VRS compensation rates are set for the future year(s).

The audit has three objectives. The first is to determine and collect what calculations, evidence,
analysis, and assumptions (collectively “basis”) were used to arrive at the projections reflected
on RSDR’s submitted by the listed VRS providers for years 2008, 2009, 2010 and 2011.

The second objective is to determine whether such basis had merit. Criteria for merit include
reasonableness, existence, methodology integrity, occurrence and relevant history.

The third objective is to determine, in cases where the criteria for merit is deficient or absent,
the reasons for such deficiency or absence including intent.

                                           Social Media Audit

The overall objective of this audit is to determine if the FCC properly protects and manages in-
formation, including personally identifiable information (“PII”), associated with social media
use. This audit will determine if the FCC has adequate controls in place to properly manage
and safeguard information, including PII, collected and disseminated thru the use of social me-
dia. The audit will also determine if the FCC is in compliant with federal records management,



FCC OIG - Semiannual Report to Congress            15              April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

privacy, and security laws as they relate to the FCC’s social media use.

                                      Physical Security Audit

The objective of this audit is to provide an assessment of physical security at the FCC’s head-
quarters in Washington D.C. and the FCC’s Gettysburg, PA facility.

                                Administrative Operations Audit

The objectives of this audit include testing the adequacy of and compliance with the FCC’s Ad-
ministrative Operations’ directives, policies, and procedures to include reviewing contracts,
Quality Assurance Surveillance Plans (“QASPs”), and payments to vendors.

                                   OMB Circular A-130 Audit

0MB Circular A-130, “Management of Federal Information Resources," requires agencies to
establish and maintain an integrated capital planning and investment control process that links
resources to results in its three phases, namely: selection, control and evaluation. The objective
of this audit is to determine whether the FCC is complying with all aspects of the Circular.

                                 Civil Monetary Penalties Audit

The objectives of this audit are to evaluate the effectiveness of internal controls and compliance
as it relates to the FCC’S management of Civil Monetary Penalties.

Universal Service Fund Oversight

The Universal Service Fund (“USF”) oversight team conducts audits, inspections, and other
reviews designed to prevent and detect waste, fraud, and abuse and to promote economy, effec-
tiveness, and efficiency in the Universal Service Fund programs.

Permanent staffing includes the AIGUSF, two Program Directors, and one staff auditor. A
third Director is being added to direct High Cost oversight activities. Additional staff includes
a Special Counsel (who also serves as Director of the Special Projects group) and two staff au-
ditors. The team is organized into four operational units:

   Schools and Libraries/Rural Health Care
   Contributors/Low Income
   High Cost
   Special Projects




FCC OIG - Semiannual Report to Congress         16                  April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

                                          The USF Programs

The FCC’s USF programs include four principal support mechanisms:

   High Cost support ensures that consumers in all regions of the nation have access to and pay
    rates for telecommunications services that are reasonably comparable to those services pro-
    vided and rates paid in urban areas.

   Schools and Libraries support, commonly known as “E-Rate,” provides discounts to assist
    schools and libraries in the United States and territories to obtain affordable telecommunica-
    tions and Internet access. The Learning On-the-Go Pilot Program is a pilot program to ex-
    plore how E- Rate can help schools and libraries offer off-premises wireless access to the
    Internet.

   Low Income support is designed to ensure that telecommunications services are available to
    low-income customers at just, reasonable, and affordable rates. Similar programs have exist-
    ed since at least 1985.

   Rural Health Care support provides reduced rates to rural health care providers for telecom-
    munications services and Internet access charges related to the use of telemedicine and tele-
    health. The Rural Health Care Pilot Program is a pilot funding program designed to facili-
    tate the creation of a nationwide broadband network dedicated to health care, connecting
    public and private non-profit health care providers in rural and urban locations.

OIG is also responsible for oversight of USF receipts collected from telecommunications pro-
viders of international and interstate telecommunications services (these providers are referred
to as contributors to the USF).

USF program disbursements are significant, as highlighted by the 2011 approved disbursements
(unaudited) shown below:

       High Cost                          $4,031,268,000
       Schools & Libraries                $2,232,539,000
       Low Income                         $1,750,728,000
       Rural Health Care                  $ 81,461,000
                                          $8,095,996,000

Including contributions, the total amount of federal funds requiring oversight is approximately
$16 billion.




FCC OIG - Semiannual Report to Congress           17                April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

                              USF Reform and Oversight Planning

USF program reform continues to have a significant impact on OIG’s oversight planning. High
Cost reform includes “policies to transition an outdated and inefficient high-cost program into
the Connect America Fund,” making broadband available in areas that would not have it. The
Lifeline Reform Order, which became effective April 2, 2012, adopts performance goals and
makes many changes to modernize the program and to reduce waste and abuse. The changes
include establishing uniform eligibility criteria and annual verification procedures, and simpli-
fied, reimbursement procedures. The Schools & Libraries program experienced significant
change in 2010 with the release of the Sixth Report and Order. Among other items, the Order
allows applicants to provide community use of E-rate funded services outside school hours,
simplifies certain administrative requirements and provides improved safeguards against waste,
fraud and abuse through strengthened gift rules and codifying the requirement that competitive
bidding processes be fair and open. Changes to Rural Health Care and Contributor related re-
quirements are also being considered. This office continues to follow implementation of or-
ders, including rule changes, impacting all facets of the USF programs.

To address this challenge, we initiated a vulnerability analysis/risk assessment of the USF pro-
grams. We continue to gather and catalog data including, but not limited to, previous audit
findings, proposed and/or implemented changes in the programs, GAO reports and comments,
the USAC Annual Report, results of investigations, and published articles and news items.
With the data gathering step substantially complete, we continue to sort and organize data by
program. Data will highlight the areas where a program is more vulnerable to fraud, waste, and
abuse. Finally, we will assess the risk associated with the vulnerabilities identified and direct
resources accordingly.

                          Compliance Assessment Program Overview

As part of our effort to ensure beneficiary and participant compliance with USF programs regu-
lations and to evaluate effectiveness of the programs, OIG is initiating a new program to evalu-
ate compliance, efficiency, and effectiveness of USF programs – the Compliance Assessment
Program (“CAP”). A CAP review is comprised of targeted audit procedures and will enable us
to direct limited resources to the highest risk compliance areas and issue inspection reports in a
timely manner. Areas of focus will change as we adopt them to cover only the highest risk are-
as and discover systemic issues that may require full scope audits. CAPs are performed under
the Inspections and Evaluations Quality Standards issued by the Council of the Inspectors Gen-
eral on Integrity and Efficiency (“CIGIE”).

We are currently testing this approach for the Schools and Libraries program, and we plan to
expand the CAP process to other USF programs if it proves to be an effective tool.




FCC OIG - Semiannual Report to Congress         18                  April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

                                   Program Oversight Activity

Schools and Libraries/Rural Health Care Programs

During this reporting period, we completed planning and initiated a CAP to test beneficiary
compliance with the Schools and Libraries rules and regulations and to provide insight into pro-
gram effectiveness. The work plan includes specific areas based on prior audit findings. We
announced our pilot CAP of a Washington D.C. Public Charter School on September 27, 2012,
and plan to issue our report during the next reporting period.

On September 12, 2012, we completed an audit of a school in Baltimore, Maryland and sent our
draft final report to FCC management for comment. We conducted a performance audit of
school’s compliance with FCC’s rules and orders governing the Schools and Libraries Support
Mechanism in accordance with generally accepted government auditing standards relative to
selected disbursements related to funding years 2008 and 2009. We plan to issue the final report
during the next reporting period.

Due to staffing constraints, oversight activity for the Rural Health Care Program was limited to
monitoring activity. We hope to either hire additional auditors or hire outside contractors to
assist OIG in its oversight efforts during FY 2013.

Contributors/Low Income Program

During this reporting period, the USF Contributors and Low Income team continued to analyze
the 14 limited scope reviews (audit surveys) of information to support the FCC Form 497 Life-
line and Link Up Worksheet and reporting subscriber information reported on in our last semi-
annual report. The purpose of our reviews is to determine the accuracy of the information re-
ported on the FCC Form 497, which was used for purposes of calculating Lifeline and Link Up
support for the low-income universal service support mechanism.

 During this period, we completed the risk assessments for four of the providers and decided to
proceed with full scope audits of three and a limited scope survey of one. Fieldwork was com-
pleted on two providers – Easy Telephone and Absolute Home Phones and reports are in pro-
gress; all other surveys and audits are in progress. We have also leveraged our limited audit re-
sources by testing the reasonableness of the annual USF Contributor reports (FCC Forms 499-
A) filed by the Low Income providers, concurrently with our Low Income audit fieldwork.

We completed a list of top risk areas of the USF Contributors and Low Income programs based
on our analysis of prior audit activity and two key documents issued by the FCC during the
year: the NPRM for Reform of the USF Contribution Methodology (FCC 12-46) issued April
30, 2012, and the Lifeline Reform Order (FCC 12-11) issued February 6, 2012.



FCC OIG - Semiannual Report to Congress         19                 April 1, 2012 - September 30, 2012
AUDIT ACTIVITIES

We also assisted the OIG investigative team’s review and analysis of a Federal False Claims
Act lawsuit related to USF contributions.

High Cost Program

Due to a lack of staffing, no High Cost oversight projects were initiated or completed during
this reporting period. We are scheduled, however, to rehire a former OIG staffer who has ex-
tensive expertise in this program and to hire new auditors to staff this team and expand our
oversight capabilities.

Special Projects

   In accordance with Office of Management and Budget Memorandum for the Heads of Ex-
    ecutive Departments and Agencies, M-11-16, dated April 14, 2011, OIG engaged the ser-
    vices of independent certified public accounting firm KPMG LLP to audit FCC compliance
    with the Improper Payments Elimination and Recovery Act (Pub. L. 111-204) (“IPERA”).
    On September 26, 2012, the OIG team met with KPMG representatives to kick off the FY
    2012 compliance audit.

   During this reporting period, this Office regularly reviewed the periodic Payment Quality
    Assurance (“PQA”) reports issued by the Universal Service Administrative Company
    (“USAC”) as prepared to implement IPERA pursuant to methodology approved by the Of-
    fice of Management and Budget.

   On a regular basis this Office also attended monthly meetings between USAC and the Com-
    mission’s Office of the Managing Director at which various USF related topics, including
    PQA reports, were discussed.

Universal Service Administrative Company – Internal Audit Division

   The AIG for USF Oversight meets with the Vice-President of USAC’s Internal Audit Divi-
    sion (“IAD”) to share and discuss audit plans, status, and current issues. In addition, OIG
    Program Directors meet with their IAD counterparts to discuss issues specific to their re-
    spective areas of responsibility.

   On September 13, 2012, the USF Oversight team staff attended IAD’s annual staff training
    on the High Cost Programs, Rural Health Care Programs, Low Income Programs, and Con-
    tributor issues. Training highlighted program changes and provided an excellent forum to
    discuss audit findings and developments in the various programs.




FCC OIG - Semiannual Report to Congress        20                 April 1, 2012 - September 30, 2012
INVESTIGATIONS

OIG investigations cover a wide range of topics touching on myriad aspects of the FCC’s mis-
sion and programs. Most significantly, our investigations often address allegations of criminal
misconduct or civil false claims. We deal with complex cybercrime investigations, large crimi-
nal conspiracies, and matters involving complex financial transactions throughout the United
States and its territories. These difficult and wide-ranging cases often require substantial inves-
tigative expertise and resources including personnel on the ground across several states, or high-
grade forensic tools and the expertise to use them. In these cases, we have always received, and
are grateful for, the assistance of other agencies, especially the Offices of Inspector General of
other federal agencies, and particularly, the Department of Justice (“DOJ”) and the Federal Bu-
reau of Investigation (“FBI”).

OIG receives and investigates complaints regarding the manner in which the FCC executes its
programs, how it handles its operations administratively, and how the FCC conducts its over-
sight responsibilities. Allegations come from various sources including FCC managers and em-
ployees, contractors, program stakeholders, and whistle blowers.

In addition to investigations regarding Commission programs, the OIG investigates internal af-
fairs and examines allegations of improper employee and contractor activity implicating federal
statutes or regulations establishing standards of conduct and procedure.

OIG, like most government offices, has an ever-increasing volume of work and limited re-
sources. Thus, matters having the potential to significantly impact federal funds, important FCC
missions or programs, or the basic integrity and workings of the agency, receive the highest pri-
ority for investigation and assignment of resources.

Modernizing the Office of Investigations

OIG continues to focus on improving the efficient use of scarce resources and makes every ef-
fort to find and utilize modern technology in ways that will leverage our resources for the most
efficient and effective investigations and prosecutions of fraud, waste and abuse in FCC mis-
sions and programs.

During the previous reporting period, our case management system (“CMS”) went on-line, with
all current investigations administered through the CMS. The CMS allows the AIGI to oversee
and manage all pending cases by keeping abreast of major developments in each investigation,
while also providing investigators with a critical tool to maintain their significant case-loads in
an organized manner. Management, in conjunction with the investigators who now use the sys-
tem on a daily basis, continues to work with the contractor to fine-tune the system itself to max-
imize efficiency.

The use of Concordance has also increased within the OIG. Concordance is a document search



FCC OIG - Semiannual Report to Congress         21                  April 1, 2012 - September 30, 2012
INVESTIGATIONS

and retrieval system that aids the OIG in its expansive document reviews, allowing each inves-
tigator to search for key documents in an expedited manner. Additionally, investigators can
more efficiently work on teams in the document reviews, sharing key information and maintain-
ing organized trails of research.

Commission employees, contractors and regulatees increasingly rely upon digital media in the
performance of their duties. Consequently, effective investigations require the application of
sophisticated technical expertise in computer forensics, as well as state of the art equipment, in
order to examine digital media in a sound forensic environment. OIG keeps pace with this con-
stantly evolving technological environment by supporting computer forensic training for inves-
tigators and is in the process of acquiring a computer forensic specialist in the Office. In the
near future, OIG plans to develop new investigative capabilities by establishing a computer fo-
rensics laboratory and hiring criminal investigators in FY 2013.

Activity During this Period

At the outset of this reporting period, 111 cases were pending. Over the last six months, 44 cas-
es have been closed and 15 opened. As a consequence, a total of 82 cases are pending. These
numbers do not include preliminary reviews of allegations, from the Hotline or other sources, or
related minor evidence analysis.

Statistics

Cases pending as of April 1, 2012             111
New Cases                                      15
Cases Closed                                   44
Cases pending as of September 30, 2012         82

Significant Activities

Several of the Office’s significant activities are described below. However, we discuss investi-
gations only when and if information may be made public without negative impact on law en-
forcement activities or prosecutions. Thus, many matters could not be considered for inclusion
in this summary.

             Investigations into Fraud in the Federal Universal Service Program

The bulk of the work of OIG Investigations involves investigating and supporting civil and
criminal investigations/prosecutions of fraud in the FCC’s federal universal service program.
The AIGI and Investigations staff work routinely with other state, local and federal agencies in
these matters. These coordinated investigatory and prosecutorial efforts, especially those in-



FCC OIG - Semiannual Report to Congress         22                  April 1, 2012 - September 30, 2012
INVESTIGATIONS
volving the DOJ, its OIG and various US Attorneys, have resulted in many successes, including
civil settlements and criminal convictions.

Most of our on-going universal service investigations are not known to the public and even
some closed investigations cannot be disclosed because of sensitivities that could impact related
ongoing matters. Highlighted below, are a few matters that have had public developments dur-
ing the reporting period:

E-Rate Matters

Following successful E-Rate prosecutions arising from FCC OIG investigations, FCC’s En-
forcement Bureau initiated several suspension proceedings. On May 9, 2012, Jonathan Slaugh-
ter was suspended from participating in activities associated with, or related to, the E-Rate Pro-
gram. And on July 20, 2012, FCC’s Enforcement Bureau debarred Gloria Harper from partici-
pating in activities associated with, or related to, the E-Rate Program.

  Investigation into Fraud in the Federal Communications Commission Telecommunica-
                                    tions Relay Service

The FCC OIG is continuing its work with the Criminal Division of DOJ and the FBI on several
investigations involving fraud on the FCC’s Telecommunications Relay Service (“TRS”)/Video
Relay Service (“VRS”) Fund program. Please see the “Audits of Telecommunications Relay
Service Providers” section of this report (page 10) for a definition of the TRS/VRS program.

Although prosecutions of those indicted in November 2009 on allegations of submitting false or
fraudulent claims for reimbursement for VRS were completed during the previous reporting pe-
riod, sentencing remains ongoing.

During the reporting period, two additional individuals, Bridget and Jerome Bonheyo, whose
indictments were reported in our Semiannual Report to Congress for the period ending March
31, 2012, and operating in conjunction with a VRS provider not previously implicated, pleaded
guilty to defrauding the TRS Fund by engaging in fake marketing and outreach schemes, in ad-
dition to other methods of pumping the minutes of use for which the provider they were work-
ing for was compensated. Sentencing of these individuals is pending.

In addition to working with the Criminal Division of DOJ, OIG is also continuing its support of
the Civil Division in the investigation of a Qui Tam case (federal false claims action brought, in
the name of the United States by a private citizen, the relator) against AT&T, for allegedly de-
frauding the TRS Fund in its provision of IP Relay, another form of TRS that allows individuals
with hearing disabilities to communicate with voice telephone users through an internet connec-
tion and a communications assistant. The government’s complaint in intervention alleges that,



FCC OIG - Semiannual Report to Congress         23                  April 1, 2012 - September 30, 2012
INVESTIGATIONS

by knowingly processing, and claiming compensation for, calls by hearing fraudsters, often re-
siding in foreign locations (e.g., Nigerian Scam Calls), AT&T submitted false claims under the
federal False Claims Act. The parties are currently awaiting court rulings that will determine
future progress in the case.

OIG also continues to follow the Commission’s on-going TRS reform-related work, including
rate and fraud related proceedings. We note that, during this reporting period, the Commission
took action to end its IP-Relay “Guest User” policy, a policy that has been used to bill for Nige-
rian Scam Calls.

             Investigations into Fraud in Recovery Act Funded FCC Contracts

The OIG has received and continues to receive allegations of fraud, waste, abuse and miscon-
duct in the American Recovery and Reinvestment Act of 2009 (“ARRA” or “Recovery Act”)
programs from a variety of sources, including the OIG Hotline, news reports, and the FCC’s
Office of Managing Director. Presently, the OIG has closed 22 investigations and has 13 re-
maining active investigations pertaining to misconduct in the Recovery Act programs. Please
see the “Agency Verification of American Reinvestment and Recovery Act Funds” section of
this report (page 12) for a discussion of the FCC’s participation in the Recovery Act.

Examples of DTV-related allegations received and investigated by OIG include: (1) a contract
was improperly awarded to a company headed by an individual with a criminal conviction; (2)
submission of claims for compensation when work was not performed; (3) contracts awarded to
bidders who failed to include required information or who provided inaccurate Representation
and Certifications in proposal materials.

PrimeX Technology, Inc.

On August 22, 2012, the United States District Court for Arizona issued a 48 count indictment
against Eric B. Jenkins, President of PrimeX Technology, Inc., including charges of wire fraud,
theft of public money, false statements and transactional money laundering. PrimeX received
Recovery Act funds from FCC’s DTV Basic and Expert In-Home Converter Box Installation
Services program. These projects called for contractors to assist or to provide enhanced assis-
tance in the installation of analog-to-digital converter boxes in eligible households.

Jenkins was the president and owner of PrimeX Technology, Inc. (PrimeX) in Mesa, Arizona
where he and his company were awarded two contracts. One contract required PrimeX to com-
plete 10,000 basic installations in the Southwest Region for an overall contract value of
$650,000. The other contract required PrimeX to complete 1,000 expert installations in the
Southeast region for an overall contract value of $78,000. PrimeX submitted seven invoices to




FCC OIG - Semiannual Report to Congress         24                 April 1, 2012 - September 30, 2012
INVESTIGATIONS

the FCC and demanded a total of $536,510 in payment, claiming it had completed 7,594 basic
installations and 550 expert installations.

All seven invoices and the supporting information were false. In fact, none of the claimed in-
stallations ever occurred. Instead, PrimeX employees would pick names from the white pages
and other sources of address compilations, enter those names in non-alphabetical order in the
supporting document (so as to avoid detection), and forge the signatures of the customers who
had purportedly received the installations. The FCC accepted five of the invoices and remitted
$493,610 to PrimeX as payment for the claimed installations. The FCC refused to accept the
other two invoices, however, after discrepancies arose. Jenkins’s trial is scheduled for Decem-
ber 2012. OIG assisted in this investigation with the U.S. Attorney’s Office in the District of
Arizona and the FBI.

                                          Internal Affairs

The Inspector General is authorized by the IG Act to investigate allegations of fraud, waste and
abuse occurring within Federal Communications Commission programs and operations. Mat-
ters of possible wrongdoing are referred to the OIG in the form of allegations or complaints
from a variety of sources, including FCC employees, contractors, other government agencies
and the general public.

In conducting investigations during the past several years, the OIG has sought assistance from
and worked jointly with other law enforcement agencies, including other OIG’s, the FBI, the
Federal Trade Commission (“FTC”), the Department of Homeland Security (“DHS”), the Secu-
rities and Exchange Commission (“SEC”), the Internal Revenue Service (“IRS”), National Ar-
chives and Records Administration (“NARA”), and the Recovery Accountability and Transpar-
ency Board as well as state agencies.

Highlighted below are a few matters that have had public developments during the reporting pe-
riod.

Grey Market or Counterfeit Goods Provided by FCC Contractor

The FCC Information and Technology Center (“ITC”) ordered a shipment of Cisco brand com-
puter equipment from a company in September 2011. The contract pursuant to which the
equipment was ordered precluded the shipment of “grey ware” (equipment sold outside normal
distribution channels by a company having no relationship with the manufacturer) and required
the equipment to be covered by the manufacturer’s warranty. ITC staff noticed irregularities
with critical aspects of the shipment. After preliminary inquiries, Cisco indicated that much of
the equipment was potentially either "grey ware" (which was clearly prohibited by the contract)
or counterfeit, and ITC referred the matter to OIG. Subsequent to obtaining additional evidence



FCC OIG - Semiannual Report to Congress         25                April 1, 2012 - September 30, 2012
INVESTIGATIONS

that at least a portion of the shipment was counterfeit, IG investigators contacted Immigration
and Custom Enforcement (“ICE”) agents in the Department of Homeland Security. After con-
firming the existence of grey market and counterfeit equipment, ICE seized the goods and ulti-
mately issued a forfeiture order to seller. The investigation is continuing.

FCC Employee Time and Attendance

The OIG received an anonymous letter alleging that a long-time FCC employee was defrauding
the government by failing to report leave. The letter stated that the FCC employee arrived late
in the morning and left early in the afternoon and consistently took long lunches. OIG reviewed
data from the access control system badge data and interviewed the subject employee, who ad-
mitted that he had been taking lunch breaks well in excess of the government standard break
and has done so for years. The subject employee also admitted to consistently arriving later and
leaving earlier than his official tour of duty hours. Within one month of receiving the allega-
tions, OIG referred this matter to the employee’s Bureau management for action. The employ-
ee retired soon after his interview with OIG.

Field Office Employee Misuse of Government Equipment for Prohibited Activities

This investigation began as a result of a Hotline call from an FCC Regional Director expressing
concern that an employee may have been misusing government equipment by visiting adult
pornographic web sites with a federally-issued computer. Based on OIG interviews, review of
the computer forensic evidence collected in this investigation, the FCC personal use policy and
ITC property records, OIG found that the subject of this investigation violated FCC policy per-
taining to personal use of FCC equipment, as well as improperly used FCC computing re-
sources. OIG referred this case to the employee’s Bureau, Human Resources, and the Security
Office. The subject employee retired shortly after the OIG investigation concluded.

Allegations of Time & Attendance Abuse: Employees Taking Long Lunches and Performing
Less than a Full Day of Work

This investigation began as a result of information received from an FCC employee, regarding
alleged time and attendance abuses occurring within the FCC Media Bureau. The employee
stated that five employees, including him, have taken lunch periods on a regular basis that far
exceed the official government standard. In addition, the employee stated that over a long peri-
od of time, the employees put in less than a full work day (arrived late, left early, or both). OIG
reviewed building entry and exit (badge) data. This documented less than complete work days
and a significant number of extended lunch periods. OIG investigators interviewed all those
against whom allegations were made and each individual employee acknowledged some meas-
ure of culpability. OIG referred this matter back to the employees’ management for appropriate
action.



FCC OIG - Semiannual Report to Congress         26                  April 1, 2012 - September 30, 2012
INVESTIGATIONS

Complaint Regarding Adjudication of Application for Certification to Provide Video Relay Ser-
vice

Subsequent to November 2009, when the criminal investigations into fraud in the VRS industry
became overt (see further discussion in TRS section), Commission staff recognized that the
rules governing certification of VRS providers were exceedingly lax and that, in recognition of
the ongoing fraud perpetrated by the white label entities (non FCC-certified subcontractors
providing VRS services), it would be detrimental to the VRS program to certify additional pro-
viders pursuant to those rules and subsequently, the Commission banned operations by white
label TRS providers.

In May 2012, OIG Investigators followed-up on a complaint by a white label entity that its ap-
plication for VRS certification was treated differently than others during 2009, and that a FCC
staffer involved in the process had a conflict of interest. After researching the process and inter-
viewing FCC staff, we found that no entity was either granted or denied certification during the
time period that the complainant’s application was pending. Because the applicant was treated
the same as all others, OIG determined that the allegations were unfounded and closed this case
without further action.

OIG Hotline

The FCC OIG maintains a Hotline to facilitate the reporting of allegations of fraud, waste,
abuse, mismanagement or misconduct in Commission programs or operations. Commission em-
ployees and concerned citizens may report such allegations to the Hotline at (202) 418-0473 or
toll free at (888) 863-2244 or by e-mail at hotline@fcc.gov. OIG’s Hotline is available 24 hours
a day, seven days a week via a recorded messaging system. The OIG Hotline continues to be a
vehicle by which Commission employees and parties external to the FCC can contact OIG to
speak with a trained Hotline technician. Callers who have general questions or concerns not
specifically related to the missions or functions of the OIG office are referred to the FCC Con-
sumer Center.

Upon receipt of a specific allegation of fraud, waste, abuse, or mismanagement, the OIG may
take any one of the following actions:

(1) open an OIG investigation or audit;

(2) refer the matter to FCC management for appropriate review and action; or

(3) refer the allegation to another Federal agency, most often the Federal Trade Commission
(FTC). For example, complaints about fraudulent sweepstakes are referred to FTC, the nation’s



FCC OIG - Semiannual Report to Congress          27                  April 1, 2012 - September 30, 2012
INVESTIGATIONS

consumer protection agency.

During the current reporting period, OIG received 862 Hotline contacts. Of these, 16 were re-
ferred to OIG Investigations for possible case openings, 411 were referred to FCC Consumer
Center, and 435 were referred to other federal agencies.




                                 OIG Hotline Calls Record 
                              April 1, 2012 ‐ September 30, 2012


                                   FCC OIG
                                     16




                   Other Federal
                   Agencies 435              FCC Bureaus/Offices
                                                    411




                                                                           FCC Bureaus/Offices

                                                                           Other Federal Agencies

                                                                           FCC OIG




FCC OIG - Semiannual Report to Congress            28              April 1, 2012 - September 30, 2012
REPORTING REQUIREMENTS

The following are the Office of Inspector General response to the 12 specific reporting require-
ments set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the administration
of programs and operations of such establishment disclosed by such activities during the report-
ing period.

Please refer to the sections of this report titled “Universal Service Fund Oversight” and
“Investigations.”

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abuse, or deficiencies identified pursuant
to paragraph (1).

Please refer to the section of this report titled “Universal Service Fund Oversight” and
“Investigations.”

3. An identification of each significant recommendation described in previous semiannual re-
ports on which corrective action has not yet been completed.

No significant recommendations remain outstanding.

4. A summary of matters referred to authorities, and the prosecutions and convictions which
have resulted.

Please refer to the section of this report titled “Investigations."

5. A summary of each report made to the head of the establishment under section (6) (b) (2)
during the reporting period.

No report was made to the Chairman of the FCC under section (6) (b) (2) during this reporting
period.

6. A listing, subdivided according to subject matter, of each audit report issued by the Office
during the reporting period, and for each audit report, where applicable, the total dollar value of
questioned costs (including a separate category for the dollar value of unsupported costs) and
the dollar value of recommendations that funds be put to better use.

Each audit report issued during the reporting period is listed according to subject matter and
described in the “Audit Areas” section.




FCC OIG - Semiannual Report to Congress          29                   April 1, 2012 - September 30, 2012
REPORTING REQUIREMENTS

7. A summary of each particularly significant report.

Each significant audit and investigative report issued during the reporting period is summa-
rized within the audits and investigations sections.


8. Statistical tables showing the total number of audit reports with questioned costs and the to-
tal dollar value of questioned costs.

We issued no reports with Questioned costs during the reporting period.

9. Statistical tables showing the total number of audit reports with recommendations that funds
be put to better use and the total dollar value of such recommendations.

We issued no reports with recommendations that funds be put to better use during the reporting
period.

10. A summary of each audit report issued before the commencement of the reporting period
for which no management decision has been made by the end of the reporting period (including
the date and title of each such report), an explanation of the reasons why such a management
decision has not been made, and a statement concerning the desired timetable for achieving a
management decision on each such report.

No audit reports fall within this category.

11. A description and explanation of the reasons for any significant revised management deci-
sion made during the reporting period.

No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

No management decisions fall within this category.

13. Information described under section 05(b) of the Federal Financial Management Improve-
ment Act of 1996.

No reports with this information have been issued during this reporting period.




FCC OIG - Semiannual Report to Congress         30                  April 1, 2012 - September 30, 2012
APPENDIX

Results of Peer Reviews

As required by Public Law 111-203, we are pleased to report that the OIG of the Equal Em-
ployment Opportunity Commission conducted a peer review of this office during the reporting
period and its review disclosed no recommendations for any corrective actions. The peer re-
view report, dated August 3, 2010, concluded the system of quality control for the FCC OIG
provides reasonable assurance of performing and reporting audits in conformity with applicable
professional standards in all material respects and FCC OIG has received a peer review rating
of pass.




FCC OIG - Semiannual Report to Congress       31                 April 1, 2012 - September 30, 2012
Report fraud, waste or abuse to:
Email:         Hotline@FCC.gov

Call Hotline:           202 418-0473
                  Or
                       888-863-2244




                                  Office of Inspector General
                             Federal Communications Commission
                              445 12th Street S.W. Room 2-C-762
                                    Washington, DC 20554
                                   WWW. FCC.GOV/OIG




FCC OIG - Semiannual Report to Congress      32              April 1, 2012 - September 30, 2012
